           U.S. Department of
                                                                     Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Quality Control Review of                              Date:    February 23, 2011
           Single Audit on the City and County of San Francisco
           Report No. QC-2011-056
                                                                            Reply To    JA-20
  From:    Earl C. Hedges                                                    Attn Of:
           Program Director for Single Audit

    To:    Regional Administrator, FTA, Region IX
           Regional Administrator, FAA, Western-Pacific Region

           The U. S. Department of Transportation (DOT) is the cognizant Federal single
           audit agency for the City and County of San Francisco (City and County). This
           report presents the results of our Quality Control Review (QCR) of a single audit
           performed by Macias Gini & O'Connell LLP with supporting work from KPMG,
           LLP on the City and County for the fiscal year ending June 30, 2009. During this
           period, the City and County expended about $84 million from the following DOT
           grant programs:

              DOT Operating              CFDA*       Program              FY 2009     Major Direct
              Administration             Number       Name              Expenditures Program Award
                                                       Airport
              Federal Aviation
                                         20.106      Improvement         $22,027,693      Yes      Yes
               Administration
                                                       Program
                                                    ARRA Airport
              Federal Aviation
                                         20.106     Improvement           $1,811,335      Yes      Yes
               Administration
                                                      Program
               Federal Transit                     Capital Investment
                                         20.500                          $14,866,650      Yes      Yes
               Administration                       Grants Program
               Federal Transit                      Formula Grants
                                         20.507                          $25,727,575      Yes      Yes
               Administration                          Program
               Federal Transit                      ARRA Formula
                                         20.507                           $7,688,882      Yes      Yes
               Administration                       Grants Program
               Federal Transit                        Clean Fuels
                                         20.519                            $126,696        No      Yes
               Administration                          Program
                     Various             Various        Various          $11,464,088       No      No
           * Catalogue of Federal Domestic Assistance
                                                                                                         2

Office of Management and Budget (OMB) Circular A-133, “Audits of States,
Local Governments, and Non-Profit Organizations,” requires the auditor to render
an opinion on the entity’s financial statements, identify inappropriate use of
Federal funds, and report internal control and compliance deficiencies that affect
Federal grant programs.

Macias Gini & O'Connell rendered an unqualified (clean) opinion on the City and
County’s financial statements and did not question any costs concerning DOT
grant programs. In addition, Macias Gini & O'Connell did not identify any
internal control or compliance deficiencies that directly affect DOT programs 1.

Macias Gini & O'Connell audited the internal control and compliance with the
Airport Improvement Program (CFDA 20.106) requirements. KPMG LLP
audited the internal control and compliance with the Federal Transit Cluster
(CFDA 20.500 & 20.507) requirements. Macias Gini & O'Connell relied on
KPMG's work to issue its single audit report on the City and County. We limited
our QCR to the audit work performed by Macias Gini & O'Connell (Airport
Improvement Program) and KPMG (Federal Transit Cluster).

The purpose of our QCR was to determine: (1) whether the audit work complied
with the Single Audit Act of 1984, as amended (Act), and OMB Circular A-133;
and (2) the extent to which we can rely on the audit work.

RESULTS

Based on our QCR we determined the work of Macias Gini & O'Connell and
KPMG to be acceptable with deficiencies. The audit work generally met the
requirements of the Act, OMB Circular A-133, and the DOT Programs. We found
nothing to indicate that the Macias Gini & O'Connell and KPMG opinions on the
reports on internal control and compliance were inappropriate or unreliable.
However, we identified the need for Macias Gini & O'Connell to expand internal
control testing on the special tests and provisions compliance requirement, and for
KPMG to correct a deficiency in audit documentation. Based on explanations
provided by Macias Gini & O'Connell and KPMG in response to our concerns, we
determined that these deficiencies did not alter the overall results of the audit.
These deficiencies should be corrected in future audits in order to adequately
support audit conclusions. The deficiencies are related to the following areas:

Testing of Internal Controls-Special Tests and Provisions (Compliance
Requirement N)-CFDA 20.106.
Macias Gini & O'Connell did not perform the internal controls testing applicable
to the special tests and provisions compliance requirement in order


1
    The single audit report issued by Macias Gini & O'Connell, LLP is available upon request. Requests
     should be sent to singleauditrequest@oig.dot.gov.
                                                                                 3

to support a low assessed level of control risk. Macias Gini & O'Connell
adequately gained an understanding of the internal controls, reviewed the City and
County's policy on airport revenue use, and properly performed compliance testing
of the special tests and provisions requirement. However, we were unable to
determine how the audit documentation supports the internal controls testing. In
future audits, Macias Gini & O'Connell agreed to perform the internal controls
testing applicable to the special tests and provisions compliance requirement.

Procurement and Suspension and Debarment (Part 4 Compliance
Requirement I) CFDA-20.500 and 20.507.

KPMG needs to better document its compliance testing of Buy America
certifications, Disadvantaged Business Enterprises (DBE) certifications, and
Procurement of Vehicles and Facilities (compliance with Americans with
Disabilities Act (ADA) of 1990). During our exit conference, KPMG provided us
the procurement documents they reviewed during their audit to address these
requirements. KPMG agreed to better document their work applicable to Buy
America, DBE, and ADA in future audits.

If you have any questions concerning this report, please call me at (410) 962-1729,
or John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.

                                        #
cc: Audit Liaison, FTA, TBP-11
    Audit Liaison, FAA, Western-Pacific Region, AWP-620.1
    Manager, FAA, San Francisco Airports District Office
    Audit Liaison, OST, M-1
    Director of Systems and Reporting, City and County of San Francisco
